•f-V
NO.
IN THE
SUPREME COURT OF THE UNITED STATES
CAROLYN BARNES, and Children, Plaintiff-Appellant
v.
UNITED STATES OF AMERICA; U.S. CENSUS BUREAU;
FEDERAL BUREAU OF INVESTIGATION; U.S.
DEPARTMENT OF COMMERCE; U.S. DEPARTMENT OF
JUSTICE; ET AL., Defendants-Appellees

PROOF OF SERVICE

Respectfully submittedCAROLYN BARNES, J.D., Ph.D
419 Indian Trail
Leander, Texas 78641
Barnes.legalguidance@gmail.com
512-817-8014

7
I, Carolyn Barnes, do declare that on this date,
as required by Supreme Court Rule 29, I have not served the enclosed
MOTION TO ALLOW A NON-CONFORMING PETITION FOR A WRIT
OF CERTIORARI on each party to the above proceeding or that party’s
counsel, for the following reason:
Injunction issued in violation of the Federal Magistrates Act and 28 U.S.C. §
1915 (d), which was never lifted. The defendants were never served in the
underlying case because the Magistrate issued a permanent injunction
enjoining the clerk from issuing Summons. The Injunction still remains in
effect preventing issuance of summons or service on defendants. Therefore,
there are no opposing counsels to serve.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on

Carolyn Barnes

NO.
IN THE
SUPREME COURT OF THE UNITED STATES

CAROLYN BARNES, and Children, Plaintiff-Appellant
v.
UNITED STATES OF AMERICA; U.S. CENSUS BUREAU;
FEDERAL BUREAU OF INVESTIGATION; U.S.
DEPARTMENT OF COMMERCE; U.S. DEPARTMENT OF
JUSTICE; ET AL., Defendants-Appellees

PROOF OF SERVICE

Respectfully submittedCAROLYN BARNES, J.D., Ph.D
419 Indian Trail
Leander, Texas 78641
Barnes.legalguidance@gmail.com
512-817-8014

<»

I, Carolyn Barnes, do declare that on this date, September 15, 2020,
as required by Supreme Court Rule 29, I have not served the enclosed
PETITION FOR A WRIT OF CERTIORARI and APPENDIX on each party
to the above proceeding or that party’s counsel, for the following reasoninjunction issued in violation of the Federal Magistrates Act and 28 U.S.C. §
1915 (d), which was never lifted. The defendants were never served in the
underlying case because the Magistrate issued a permanent injunction
enjoining the clerk from issuing Summons. The Injunction still remains in
effect preventing issuance of summons or service on defendants. Therefore,
there are no opposing counsels to serve.
I declare under penalty of perjury that the foregoing is true and correct.

QOj
Executed on September 18, 2020.

'

Carolyn Barnes

f

V

H\
%

NO.
IN THE
SUPREME COURT OF THE UNITED STATES
CAROLYN BARNES, and Children, Plaintiff-Appellant
v.
UNITED STATES OF AMERICA; U.S. CENSUS BUREAU;
FEDERAL BUREAU OF INVESTIGATION; U.S.
DEPARTMENT OF COMMERCE; U.S. DEPARTMENT OF
JUSTICE; ET AL., Defendants-Appellees

PROOF OF SERVICE

Respectfully submittedCAROLYN BARNES, J.D., Ph.D
419 Indian Trail
Leander, Texas 78641
Barnes.legalguidance@gmail.com
512-817-8014

r
t

»

I, Carolyn Barnes, do declare that on this date, September 15, 2020,
as required by Supreme Court Rule 29, I have not served the enclosed
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party’s counsel, for the following reasoninjunction issued in violation of the Federal Magistrates Act and 28 U.S.C. §
1915 (d), which was never lifted. The defendants were never served in the
underlying case because the Magistrate issued a permanent injunction
enjoining the clerk from issuing Summons. The Injunction still remains in
effect preventing issuance of summons or service on defendants. Therefore,
there are no opposing counsels to serve.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 18, 2020/

Carolyn Barnes

